                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

    Case Number: I04060021
                                                                                        11         Page 1 of 1


                    We opened this matter after receiving allegations1of possible fraud involving the
                    ~ i s t r i c t ' suse
                                       ~ of NSF funds. As a result of our investigation, we determined that, with
                    regard to its NSF awards, the District had submitted false claims for unallowable costs;
                    miscalculated and overcharged indirect costs resulting in fkther false claims, and failed
                    to properly track participant support costs. Furthermore, the District prematurely
                    destroyed documents and thus could not support a large number of costs charged to an
I                   NSF award.

                    We referred our findings to the appropriate United State's Attorney's office3 for
                    resolution. Ultimately, because the District is currently experiencing financial difficulty,
                    we agreed to the attached Settlement agreement, which incorporates by reference a five-
                    year compliance plan.

                    Accordingly, this case is closed.




         * San Diego Unified School District.
           ,The united States Attorney's Office for the Eastern District of Virginia.


I
NSF OIG Form 2 (1 1/02)
                          -
                                    Settlement Agreement
                                           Between
                                 The United States of America
                                             And
                               San Diego Unified School District

I.     Background

       1.      This Settlement Agreement is entered into between the United States of America
(the United States) and San Diego Unified School District (SDUSD). The United States and
SDUSD may be referred to individually as "Party" or collectively as "the Parties."

       2.       San Diego Unified School District is one of the 25 largest urban school districts in
the country. It serves over 135,000 students in 221 educational facilities.

        3.     The National Science Foundation (NSF) is an independent federal agency, located
in Arlington, Virginia, which spends approximately $6 billion a year funding research and
education awards in science and engineering disciplines.

       4.     In keeping with its mission, NSF solicited proposals for cooperative agreements
(awards) under the Urban Systemic Initiative (USI) and the Urban Systemic Program (USP) to
increase K-12 achievement in science, mathematics and technology, through targeted programs.
SDUSD submitted proposals and ultimately received a total of $16,846,828 of NSF funds from
the two programs; $7,349,907 under US1 (ERS-9552881), fiqm September 1996 through August
2001, and $9,449,921 under USP (ERS-0115108) from September 2001 through January 2008.

      5.      As a result of its investigation, the United States contends that the SDUSD
improperly charged $1,778,599 to NSF by submitting or causing to be submitted claims for
payment to the United States under NSF awards.     -
               a.      Between 15 November 1996 and 22 August 2001, under the US1 award,
                       SDUSD submitted claims of $56,405 for unallowable costs; miscalculated
                       and overcharged $66,262 in indirect costs resulting in further improper
                       claims, failed to properly track $1,082,946 in participant support costs;
                       and failed to properly preserve documents and thus cannot support
                       $251,147 in miscellaneous cost charged to the award.

               b.     Between 8 February 2002 and 11 January 2008, under the USP award,
                      SDUSD, charged $321,147 in unallowable costs; and miscalculated and
                      charged $147 in indirect cost to the NSF award.

       6.      The conduct alleged inparagraph 5 is the "Covered Conduct."


                                                                                        Page 1 o f 6
        7.     The United States contends that the Covered Conduct violated the False Claims
Act, 3 1 U.S.C. $5 3729-3733 (FCA) andlor common law doctrines by the submission of claims
for payments under the awards identified that were improper and that by submitting such claims
to the government, SDUSD was able to collect federal payment improperly.

        8.     SDUSD denies any wrongdoing as related to the Covered Conduct.

      9.    The Parties desire to settle their disputes regarding the allegations relating to the
Covered Conduct to avoid further expense and the uncertainties of litigation.

       10.    In reliance upon the representations contained herein and in consideration of the
mutual promises, covenants, and obligations in this Settlement Agreement, the Parties agree as
follows:

11.    Terms and Conditions

       A.      Financial Requirements

        11.    SDUSD shall pay a total sum of $300,000 (the Settlement Amount) to the United
States. SDUSD agrees to pay the Settlement Amount within five (5) business days after
execution of this Settlement Agreement by all Parties (Effective Date). Payment shall be made
by means of electronic funds transfer in accordance with instructions to be provided to SDUSD
by the Financial Litigation Unit of the United States Attorney's Office for the Eastern District of
Virginia (EDVA) of Norfolk, Virginia. Such instruction may be obtained by telephoning Ms.
Ginger Swartworth, Chief, Financial Litigation Unit, whose telephone number is 757-44 1-3179.

       B.      Compliance Requirements

        12.    The Parties agree that SDUSD will implement the Compliance Program attached
hereto and incorporated by reference herein. The Compliance Program will ensure compliance
with the terms and conditions applicabIe to NSF awards and subawards; will ensure compliance
with all relevant laws and regulations governing NSF awards and subawards as provided for in
45 CFR Parts 601-690 as now or hereafter amended; and will demonstrate SDUSD7s
commitment to the prevention of fraud, false statements, and misspending of funds related to
NSF awards by SDUSD, its officers, faculty, other employees; and relevant independent
contractors and subrecipients.



        13.    ON BEHALF OF THE UNITED STATES - In consideration of this
AGREEMENT and the payments set forth herein, and except for such obligations as are created
by this AGREEMENT and subject to the exceptions stated in paragraph 16 below, upon the
Effective Date, the UNITED STATES hereby waives and releases SDUSD, its present and
former officers, directors, and employees (the "Released Parties") from any civil claim the

                                                                                        Page 2 of 6
UNITED STATES has or may have under the False Claims Act, 31 U.S.C. $53729-3733,
common law or equitable doctrines including payment by mistake of fact, unjust enrichment,
disgorgement, restitution, breach of contract, breach of fiduciary duty, etc, and promises to
refrain from instituting, or maintaining any civil claim, action, or suit under any federal statutes,
laws, regulations or at common law against the Released Parties arising out of or pertaining to
the Covered Conduct.

        14.      ON BEHALF OF SDUSD - In consideration of this AGREEMENT and except
for such obligations created by this AGREEMENT, on the Effective Date, SDUSD waives and
releases the United States and its officers, agents, employees, agencies, departments, and
contractors and their employees for any and all claims, causes of action, adjustments, and set-
offs of any kind arising out of or pertaining to the Covered Conduct, including the investigation
of the Covered Conduct and promises to refrain from instituting or maintaining any civil claim,
action, or suit, under any federal statutes, laws, regulations or at common law against the United
States arising out of or pertaining to the Covered Conduct..

        15.    Subject to the exceptions noted in Paragraph 16, below, in consideration of the
obligations of SDUSD as set forth in this Settlement Agreement, and at such time as full
payment of the Settlement Amount is made by SDUSD, the United States shall terminate its NSF
OIG investigation into the Covered Conduct, as set out in Paragraph 5, above.

        16.     EXCEPTIONS TO RELEASE: Notwithstanding any term of this AGREEMENT,
specifically reserved and excluded fiom the scope and terms of this AGREEMENT as to any
entity or person are the following:

               a.      any civil, criminal, or administrative liability to the UNITED STATES
               arising undei- Title 26, U.S. Code (Internal Revenue Code), and related
               regulations;
               b.      any criminal liability;
               c.      except as explicitly stated in this Agreement, any administrative process or
               proceeding by the UNITED STATES (or its agencies);
               d.      any judicial process or proceeding by the UNITED STATES (or its
               agencies) for any conduct other than the COVERED CONDUCT;
               e.      any liability to the UNITED STATES (or its agencies) for any conduct
               other than the COVERED CONDUCT; and
               f.      any claims of the UNITED STATES based upon such obligations as are
               created by this Agreement.


111.   Breach and Default Provisions

        17.     In the event that NSF OIG believes SDUSD has breached any of its obligations
under this Compliance Program, NSF OIG shall notify SDUSD of the alleged breach by
electronically or by other appropriate means email to SDUSD's Chief Financial Officer
                                                                                          Page 3 of 6
("CFO"), who shall serve as the Authorized Organizational Representative, specifying the nature
and extent of the alleged breach. SDUSD will have thirty (30) days from receipt of the notice to:
(a) cure said breach; or (b) otherwise satisfy NSF OIG that (1) it is in full compliance with this
Compliance Program or (2) the breach cannot be reasonably cured within thirty (30) days, but
that .SDUSD has taken effective action to cure the breach and is pursuing such action with
diligence.

         18.    If, at the end of the t h h y (30) day period described above, NSF OIG determines
that SDUSD continues to be in breach of any of its obligations under this Compliance Program,
NSF OIG will inform SDUSD's CFO of its conclusion that SDUSD is in default. NSF OIG
may also take one or both of the following actions: (1) refer the matter to NSF to initiate
proceedings to undertake appropriate administrative action, including but not limited to the
suspension or termination of any or all NSF awards and/or suspension or debarment of SDUSD;
and/or (2) refer the matter to the United States Attorney's Office for civil enforcement, pursuant
to the terms of the Settlement Agreement.

         19.    Should any action to enforce or interpret this Settlement Agreement or to resolve
 any dispute hereunder be required, the Parties acknowledge and agree that the appropriate
jurisdiction for any such matter is the U.S. District Court for the Eastern District of Virginia.

IV.    Costs

       20.      The Parties fhther agree that each Party to this Settlement Agreement shall bear
its own costs, expenses, and fees (including attorney fees).

       21.     SDUSD agrees that all costs incurred by or on behalf of SDUSD in connection
with the following are, except as specifically noted, unallowable costs to-United States
Government awards under the cost principles applicable to such awards:

               a.     NSF OIG's investigation of the Covered Conduct;
               b.     SDUSD's investigation, defense, and corrective actions undertaken in
               response to NSF OIG's investigation in connection with the Covered Conduct
               (including attorney fees);
               c.     the negotiation of this Settlement Agreement, and
               d.     the payment made pursuant to this. Settlement Agreement.

     22.   These unallowable costs will be separately estimated and accounted for by
SDUSD and SDUSD will not charge such unallowable costs to any Federal awards.

V.     Integration Clause

        23.     This Settlement Agreement, incorporating herein the attached Compliance
Program, embodies the entire Settlement Agreement and understanding of the Parties with
respect to the subject matter contained herein. There are no restrictions, promises,

                                                                                       Page 4 of 6
representations, warranties, covenants, or undertakings other than those expressly set forth or
referred to in this Settlement Agreement and the aforementioned attached Compliance Program.
This Settlement Agreement may not be amended except by written agreement of the Parties.

        24.      This Settlement Agreement, incorporating the attached Compliance Program,
supersedes any and all prior Settlement Agreements and understandings between the Parties with
respect to this subject matter.

       25.     SDUSD represents that this Settlement Agreement is freely and voluntarily
entered into without any degree of duress or compulsion whatsoever.

       26.     Each person who signs this Settlement Agreement in a representative capacity
warrants that he or she is duly authorized to do so.


CHUCK ROSENBERG
UNITED STATES A'ITORNEY



B                                                                     4 / 3 a l o 8/
                                                    -                    Date
       Assistant United States Attorney
       Justin W. Williams United States Attorney's Building
       2 100 Jamieson Ave
       Alexandria, VA 223 14
       (703) 299-3 700


SAN D I E 2 0 UNIFIED SCHOOL DISTRICT
                    A

By:                                                                    9.26-ok
                                                                         Date
       Chief Finanoal Utt~cer
       San Diego Unified School District
       4100 Normal Street, Room
       San Diego, CA 92 1 03
       Phone: (6 19) 725-5550




                                                                                    Page 5 of 6
                San Diego Unified School District Compliance Program

                                         Preamble

         1.      San Diego Unified School District (hereinafter "SDUSD") agrees, as a term
of its Settlement Agreement with the United States to which this is attached and
incorporated by reference, to implement and verifL through a yearly audit a Compliance
Program to ensure compliance with the terms and conditions applicable to any NSF awards
and subawards; to ensure compliance with all relevant laws and regulations governing NSF
awards as provided for in 45 CFR Parts 601 to 690, as now or hereafter amended, and to
demonstrate SDUSD's commitment to the prevention of fraud, false statements, and
misuse of funds related to NSF awards and subawards by SDUSD, its officers, faculty and
relevant employees. The Compliance Program shall be based upon an assessment of the
risk of such unlawful activities, have adequate financial and human resources, and shall be
maintained so as to ensure that SDUSD and each of its officers, faculty and relevant
employees maintain the integrity required of a recipient of NSF awards and subawards.
This Compliance Plan accompanies the settlement of claims which are denied and
contested, and nothing contained herein shalI be construed as an admission by SDUSD of
any liability or criminal wrongdoing.

        2.      Relevant employees are the Chief Financial Officer or his/her designee,
Principal Investigators (PIS), co-PIS, Director of CumcuIum, independent contractors, sub-
recipients and any other person who is responsible for the design, conduct, administration
or other activity fbnded or supported by NSF awards.

       3.      NSF awards herein shall mean any cooperative agreement, grant, contract,
or other instrument whereby SDUSD receives NSF funds.

        4.      NSF subawards herein shall mean any award provided pursuant to an
agreement between SDUSD and any recipient of an NSF award, cooperative agreement,
grant, contract or other instrument.

        5.     Yearly audit shall mean the comprehensive statistically-valid independent
audit designed to assess the efficacy of SDUSD's programs as specified in paragraphs 16
and 18.

       6.      It is recognized by the parties that SDUSD submitted a Corrective Action
Plan (CAP) on March 25, 2004 and that the action items contained in the CAP, where
applicable and when implemented, may contribute toward fulfilling the requirements this
Compliance Program. In the event of any conflict between action items in the CAP and
this Compliance Program, however, the terms of this Compliance Program control.




SDUSD COMPLIANCE
              PLAN                                                        Page 1 of I0
                                      Requirements

        7.     The period of future compliance obligations assumed by SDUSD under this
Compliance Program will commence on the date the final signatory executes the
Settlement Agreement to which this Compliance Program is attached and incorporated (the
Effective Date). The compliance period will be completed after NSF and NSF OIG's
receipt and written approval of the fifth (5th) and final annual report.

        8.      The scope of this Compliance Program shall be limited to any NSF-fhnded
activity taking place during the term of this plan or NSF finds awarded or disbursed during
the compliance period. NSF OIG shall monitor compliance with the requirements of this
Compliance Program.

        9.      All reports and notifications required under this Compliance Program shall
be sent to the NSF OIG Associate Inspector General for Investigations, via ernail to
@3lsf.gov.

       10.    SDUSD agrees to implement the following measures within one hundred
twenty (120) days of the Effective Date, unless otherwise specified below:

                                  Compliance Program

        11.     The Compliance Program shall include identification of relevant employees
under NSF awards and subawards. Each of their roles and responsibilities shall be
described so that their relationship to SDUSD's responsibilities under NSF awards and '
subawards is clear. The lines of responsibility shall be clearly established from each
individual position up to and including SDUSD's responsible signatory officials. All
individuals in such positions will be provided with (or have electronic access to) written
policies and/or procedures applicable to their positions for:

       (a)    a code of conduct holding SDUSD personnel to high ethical
              standards of professional conduct and integrity, including addressing
              conflicts of interest;

       (b)    accurate time and effort reporting under NSF awards to meet the
              standards of the cost principles specified in the Office of
              Management and Budget (OMB) Circular A-87 and the Federal
              administrative requirements contained in 45 C.F.R. part 602;

       (c)    accurate charging of costs under NSF awards;

       (d)    accurate monitoring, managing and reporting of cost sharing;
       (e)    accurate monitoring of sub-recipients and consultants, and sub-
              recipient and consultant charges;


SDUSD COMPLIANCE PLAN                                                     Page 2 of 10
           (f)     accurate reconciliation of accounting records; and

           (g)     document management and retention.

           (h)     Individuals in such positions are responsible for the effective
                   implementation of the aforementioned policies and procedures.

I                                         Compliadce Officer

            12.    After "appropriate screening," (as defined in paragraph 16c herein) the
    Chief Financial Officer of SDUSD or hisher designee shall serve as Compliance Officer.
    The Compliance Officer shall be responsible for Compliance Program operations
    including, where appropriate, review of awards, development of Compliance Programs,
    training and submission of comprehensive written annual reports to the Superintendent of
    SDUSD and to NSF OIG on the status of compliance. The Compliance Officer shall
    monitor SDUSD's internal controls to ensure compliance with all applicable Federal laws
    and regulations regarding the use and expenditure of NSF award and subaward funds.
I
                                     Compliance Committee
I           13.     The Compliance Officer shall chair a Compliance Committee that shall be
    responsible for ensuring implementation of the Compliance Program throughout SDUSD.
    In addition to the Compliance Officer, the members of the Compliance Committee for NSF
    awards shall include appropriately screened officers, including: Principal Investigators and
    Director of Curriculum; the Compliance Committee for NSF subawards shall include
    appropriately screened officers, including the Director of Curriculum, and the CFO, if the
    CFO is not serving as the Compliance Officer.

                                         Written Policies

             14.    Within one hundred twenty (120) days of the Effective date, SDUSD shall
    implement written policies regarding its commitment to ensure compliance with all laws
    and regulations related to the receipt of NSF awards and subawards. These policies shall
    be adopted by the Board of Education and distributed to all SDUSD officers and relevant
    employees. Copies of SDUSD's written policies will be provided to NSF 01G, within
    thirty (30) days of implementation. They shall be included as part of the annual training
    and any policies modified during the term of this Compliance Program shall be included as
    part of the annual report sent to NSF OIG. Such policies shall be updated to reflect any
    changes in SDUSD's policies or practices SDUSD's compliance policies shall include
    disciplinary procedures for dealing with employees who fail to meet the terms and
    conditions of NSF awards and subawards.

                   Posting and Displaying NSF OIG's Fraud Hotline Poster


    SDUSD COMPLIANCE
                  PLAN                                                         Page 3 of 10
        15.    During the period of the Compliance Plan, SDUSD must:

               (a)    prominently display for any NSF award, NSF OIG's
                      fraud hotline poster in common work areas
                      (including, but not limited to teachers' lounges,
                      administrative offices and financial offices) within
                      district divisions and work sites performing work
                      under any NSF award.
               (b)    post on its website an electronic version of the NSF
                      OIG's fraud hotline poster in a manner easily
                               accessible to SDUSD's relevant employees

               (c)    request that any subcontractor working on an NSF
                      award or subaward post the NSF OIG's fiaud hotline
                      poster in its common areas.

                                   Audit Requirements

         16.    NSF Audit requirements will apply to NSF awards and subawards. In
addition to the single audit requirements contained in OMB Circular A- 133, SDUSD shall
have conducted, on an annual basis, a comprehensive, statistically-valid, independent audit
of SDUSD's compliance with this agreement as well as all applicable Federal laws and
regulations regarding the use and expenditure of NSF award hnds, including applicable
NSF Award conditions, federal laws or regulations, and OMB Circulars. This audit shall
include each component of SDUSD that receives or has oversight responsibility with
respect to NSF awards and subawards and shall be conducted in accordance with Generally
Accepted Auditing Standards with a statistically-valid sample. Special attention shall be
devoted to risk assessment and internal controls designed to ensure compliance with NSF
requirements, including the certifications made on applications, progress reports, financial
reports, and other reports related to NSF awards and subawards. The audit will also assess
the efficacy of SDUSD's compliance program as to whether:

               (a)    SDUSD has established compliance standards and
                      procedures to prevent and detect violations of law;


               (b)    SDUSD's leadership is knowledgeable about such
                      standards and procedures and whether a high level
                      person is assigned or retained to direct, overall
                      responsibility to ensure the implementation and
                      effectiveness of the standards and procedures;




              PLAN
SDUSD COMPLIANCE                                                            Page 4 of 10
               (c)    SDUSD has made reasonable efforts to exclude from
                      substantial authority any individual whom SDUSD
                      knew or should have known through exercise of due
                      diligence, has a history of engaging in violations of
                      law or other conduct inconsistent with an effective
                      program to prevent and detect violations of law;


               (d)    SDUSD has made reasonable steps to communicate
                      its compliance standards and procedures to relevant
                      employees through effective training programs and
                      otherwise disseminating information appropriate to
                      such individuals' respective roles and responsibilities;

               (e)    SDUSD took reasonable steps to ensure that its
                      program to prevent and detect violations of law is
                      followed, to evaluate the effectiveness of the
                      compliance standards and procedures, and to provide
                      a system whereby SDUSD's employees and agents
                      may report or seek guidance regarding potential or
                      actual violations of law without fear of retaliation,
                      including mechanisms that allow for anonymous
                      reporting;


              (f)     SDUSD's program to prevent and detect violations of
                      law was enforced consistently through appropriate
                      incentives and as necessary disciplinary measures for
                      employees engaging in violations of law and for
                      failing to take reasonable steps to prevent or detect
                      violations of law; and


              (g)     SDUSD has taken reasonable steps, if a violation of
                      law was detected, to respond appropriately and to
                      prevent future violations of law, including making
                      any necessary changes to the program for preventing
                      and detecting violations of law.

        17.    The first annual report will be due 12 months after the implementation of
the Compliance Program specified in paragraph 7 above. All subsequent annual reports
will be due on the anniversary of the first annual report.




SDUSD COMPLIANCE
              PLAN                                                          Page 5 of 10
             18.    SDUSD will provide a working copy of the audit plan to NSF OIG thirty
    (30) days prior to the initiation of the audit. The audit plan will be designed to (1) ensure
    compliance with the terms and conditions applicable to any NSF awards and subawards,
    and (2) assess the efficacy of SDUSD's Compliance Program as outlined above. NSF OIG
    will have the right to require additional procedures if it determines, within ten (10) working
    days after receiving the advance working copy of the audit plan, that it lacks sufficient
    detail to ensure accomplishment of (1) and (2) above. SDUSD will submit to NSF OIG a
    copy of the independent auditor's written report and findings as a suppleme~~t    to the annual
    written reports required elsewhere in this Compliance Program. The audit referred to in
    this section may be conducted in whole or in part by SDUSD's internal auditors, provided
    that SDUSD provides NSF OIG with adequate assurance in writing, certified by the
    Compliance Officer, that the internal auditors have the requisite independence in
    connection with the audit plan. SDUSD waives the right to claim that any final reports or
    work papers resulting from the independent annual audits as described above constitute
    attorney work product or any other recognized privilege.

            19.     Any and all reviews conducted at SDUSD, which reveal situations that
    might constitute or indicate noncompliance with NSF requirements, are to'be timely
    disclosed to the individual conducting the annual intemal audit and the Compliance
    Officer.

                                     Annual Written Reports

            20.     SDUSD will annually provide NSF OIG with a written report identifying
    deficiencies discovered by the annual audits (described above) pertaining to NSF awards
    and subawards and the corrective actions SDUSD has undertaken to address such
    deficiencies. Such reports shall be due one (1) year after the implementation of the written
    procedures in paragraph 10 above and for each of the four (4) years thereafter. These
    reports shall include a certification by SDUSD's Compliance Officer that all deficiencies
    have been addressed to ensure SDUSD's compliance with all requirements of Federal law,
    regulations, and this Compliance Program.

            21.     All audit workpapers and other supporting documents for audits or reviews
    of compliance with this Compliance Program shall be retained by SDUSD for three (3)
    years after the completion of this Compliance Agreement and shall be made available to
    NSF and NSF OIG upon request.

           22.     A "material violation" is one that has a significant adverse impact on the
    administrative, financial, or programmatic aspects of NSF awards and subawards. SDUSD
    has a duty to:

           (a)     Immediately report, every material violation or material weakness
                   discovered during any audit or review to NSF OIG, remedy the



    SDUSD COMPLIANCE
                  PLAN                                                           Page 6 of 10
0
                                                                                .samsops!p q3ns
     JO dn-A~OIIOJ  pue Ma!AaJ leuraju! ayljo sqnsal aql puv 'ure~3o.xda3ueqdruo3 amsops!p
   1e!1uapguo3 aql lapun p a ~ ! a 3 asuo!~e3!unmmo3~0
                                       ~                   X~eurmnse 910JSN 01 v o d a ~Ienuue
                                                               oJ
      SJ! U! apnl3u! IIeqs asnas 'papnpuo:, s! ~ ~ - M o [ [ladold    lcql alnsua put? saInsops!p
 alq!pa~:, q3ns IIajo Ma!Aal Ieuraiu! aq1 a ~ ! n b a[Ieqs
                                                      ~ asnas .aAoqepaq!l:,sap 8u!u!eg aq1
   JO p d se aaXo~drualuaAaIa1 q3ea 01 u ~ o u y    urs!ueq3aur a.lnsops!p ~e!luapguo:, aql ayew
       11"s asnas .spnMe JSN 01 8 u ! u ! e ~ daieudo~ddeu!aq 01 aaXo~duraayl Xq pauraap
  s p e JO 'sainpa3oid 'sa:,!peld Xue la:,go a:,ua!ldwo3 s ' a s n a s 01 IC~snouLCuoueasops!p
01 saaXoldwa 1ueAaIal put! 'asnas 8ullqeua rus!ueq:,au~ amsops!p [e!~uapguo:,e ys!lqelsa
 lpys a S n a S 'e!uroj!1e3 JO aiels ay1JO S M ay1  ~ Xq pa~!uuad1uaixa a y ~ o . ~'SZ
                                                                       .pa~!a:,al8u!u!e~l30 smoq p m
 '3!dol 'alep aql Bu!leis %u!u!eq aql8u!lalduro:, aaXoldwa pue l a 3 1 ~ q3ea   0 JO aIg lauuos~ad
     aq1 u! pa:,e~daq I~!M aie3g!pa3 y -310 JSN 01 pall!urqns p o d a ~p n u m aql U! papnpu!
      aq 11eqs 8u!u!e~l a v j o au!po :,!do1 pue alnpaq3s v y s e q Ianuue ue uo slnoq (2) OM^
    ]seal le JO 8u!u!e.q a:,m!1duro3 Ieuo!yppe aA!aDaJ lleqs pue 'sluaura~!nba~pmMe IueAaIaI
         aql se I[aM se w e ~ % oa:,ue!lduro3
                                   ~d            s!yjjo sjua~uo:,aqijo uo!ssn:,s!p e apnpu! Ileqs
     ieql8u!u!e~l I~!~!u!Jos ~ n o q( 2 ) OM] p a l je a ~ ! a ~ IIeys
                                                                 a l aaXo~dwa1ueAaIaJ p m D:,IJJO
      q3eg -spaura~!nblq3nsjo u o ! ~ e ~ oXue    ! ~ uroy ansua I ~ lMe v asnas pue Ienp!A!pu!
         aql 01 qloq sa~uanbasuo:,a v p m ' s p m ~ e q n spm! spleMe JSN 01 p~e8al~J!M MOIIOJ
   01 pal3adxa s! Ienpy!pu! q:,ns l e v pnpuo3jo spmpmls p m 'suo!1e1nSa~ ' S M ~a~qe:,ydda
          IIe JO anMe sy aarCo1dur.a 1ueAaIal pue m:,g~oy3ea ley1 alnsua 01 pau%!sap ure~.8old
  a~ue!ldu103Bu!u!eq a~!suaya.xduIme up1upur p m alw!lsu! IIeys asnas                      'pz
                                                          .lapaJay1 smarC (p) lnoj a v j o q3ea
 JOJ p m aAoqe 0I qde18emd u! sarnpa3old uallpw aq1'Jo uo!1eluauxa1dux! aq1 lave maX ( I )
  auo anp aq IIeqs s v o d a ~q:,nS '8 1 ydeBeled u! paquxap se vodal1!pne luapuadapu! p m
  02 q d e a u e d u! paqu:,sap st? vodal1!pne u a ~ ayl
                                                       u JO              ~
                                                          ~ Ado3 a q l ! spJeMeqns  l o spmMe
     'sl3equo:, sa~!a3al1!q 3 r y ~urolj sa!3ua8e IelapaJ aplhold I~!Masnas        '£2
                                                                     palro3 01
         uayel alaM suo!pe 1 e q 910         N
                                    ~ ~ S @10u     pue 'pam:, s! ssauyeam l o
         uo!lelo!A leualeur ay1 I!lun lagaalay1 sp0da.1 snlels laln8al a p ~ ~ o l d
              'Llaie!paurur! 910JSN WOJU!0s I[!M asnas 'srCap OE u!yi!~
          ssauyeaM l o uorielo!~leualew ayi Lpaural 01 alqeun s! asnas JI            (q)
                        NSF O I G Inspection, Audit, and Review Rights

            26.     In addition to any other right that NSF OIG has pursuant to NSF award or
    subaward conditions or other authority, NSF OIG may examine and copy SDUSD's
    records for the purpose of verifying and evaluating: (a) SDUSD's compliance with the
    terms of this Compliance Program; and (b) SDUSD's compliance with any NSF
    requirements. SDUSD shall make the records available at any reasonable time for
    inspection, audit, and/or reproduction. Furthermore, for purposes of this provision, NSF
    OIG may interview any SDUSD employee at the employee's place of business during
    normal business hours or at such other place and time as may be mutually agreed upon
    between the employee and NSF OIG.

            27.     In the event that NSF OIG believes SDUSD has breached any of its
    obligations under this Compliance Program, NSF OIG shall notify SDUSD of the alleged
    breach by electronically or by other appropriate means email to SDUSD's Authorized
    Organizational Representative ("AOR"), specifying the nature and extent of the alleged
    breach. SDUSD will have thirty (30) days from receipt of the notice to: (a) cure said
    breach; or (b) otherwise satisfy NSF OIG that (1) it is in full compliance with this
    Compliance Program or (2) the breach cannot be reasonably cured within thirty (30) days,
    but that SDUSD has taken effective action to cure the breach and is pursuing such action
    with diligence.

            28.     If, at the end of the thirty (30) day period described above, NSF OIG
    determines that SDUSD continues to be in breach of any of its obligations under this
    Compliance Program, NSF OIG will inform SDUSD's AOR of its conclusion that SDUSD
    is in default. NSF OIG may also take one or both of the following actions: (1) refer the
    matter to NSF to initiate proceedings to undertake appropriate administrative action,
    including but not limited to the suspension or termination of any or all NSF awards and/or
    suspension or debarment of SDUSD; andlor (2) refer the matter to the United States
    Attorney's Office for civil enforcement, pursuant to the terms of the Settlement
    Agreement.

            29.     Should any action to enforce or interpret this Compliance Program or to
    resolve any dispute hereunder be required, the Parties acknowledge the jurisdiction of the
,   federal courts. The parties agree that, absent a breach of this Compliance Program and the
    Settlement Agreement to which it is attached and incorporated by reference, the execution
    of the Settlement Agreement shall be final as to all matters alleged in the Settlement
    Agreement.                 L




                                              Costs

          30.    SDUSD shall bear its own costs, expenses, and fees in relation to
    implementation of this Compliance Program.


    SDUSD COMPLIANCE
                  PLAN                                                        Page 8 of 10
           31. . All costs, whether direct or indirect, incurred by or on behalf of SDUSD in
    connection with the following are unallowable costs under the cost principles applicable to
    government awards (hereafter, "unallowable costs"): (I) the matters covered by this
    Compliance Program; (2) the negotiation of this Compliance Program and the Settlement
    Agreement (including attorney's fees) and (3) any payments made pursuant to the
    Settlement Agreement.

            32.    These unallowable costs will be separately estimated and accounted for by
    SDUSD and SDUSD will not charge such unallowable costs directly or indirectly to any
    federal awards.

                                           Modification

            33.  Any modification to this Compliance Program shall not be effective until a
    written amendment is signed by representatives duly authorized to execute such
    amendment.
,

!
                                        Integration Clause
I

           34.     This Compliance Program and the Settlement Agreement to which it is
i                  attached and incorporated by reference, embodies the entire Settlement
                   Agreement and understanding of the Parties with respect to the subject
                   matter contained herein. There are no restrictions, promises,
                   representations, warranties, covenants, or undertakings other than those
                   expressly set forth or referred to in this Compliance Program and the
                   Settlement Agreement. This Compliance Program, together with the
                   Settlement Agreement, supersedes any and all prior Settlement Agreements
                   and understandings between the Parties with respect to this subject matter,
                   except for the terms and conditions of individual awards.



    SAN DIEGO UNIFIED SCHOOL DISTRICT                          Date:    9. d6 - o 8
    By:
           chief ~ i n a n c gOfficer




                  PLAN
    SDUSD COMPLIANCE                                                          Page 9 of 10
